                                        CLOSEOUT FOR M91100041




           On October 28, 1991, Dr.                             IG of allegations of misconduct in
    science she had r                                          he complainant. The complainant, a
    faculty member at                                             an ad hoc reviewer for proposal
                                                                                      The proposal
    was submitted by Dr. t         h          e subject. The subject is a faculty member-a
    University. The complainant alleged that a table appearing in the proposal's appendix had
    been plagiarized from a paper1 by another scientist, and that a paper2 by the subject contained
    text plagiarized from that scientist's paper.

           OIG compared the other scientist's paper with the subject's paper and the proposal
    table. OIG found 4 short sections of proposal text describing the table and 19 sections of text
    of varying length in the subject's paper that appeared to have been copied or closely
I
    paraphrased from the other scientist's paper. OIG found that the numbers in the proposal table
    were remarkably similar to those in the other scientist's table. The complainant said that the
    values in the table published in the scientist's paper represented those collected from
    individual experiments in which the values varied greatly. Thus it was highly unl;kely that the
    subject's experiments would have resulted in values so similar to those. OIG also found that
    the values and trends for data within the copied or paraphrased sections of the subject's paper
    were different than those in the other scientist's paper but, again, were remarkably similar.
    OIG concluded that, because the numbers in the copied material in the subject's proposal and
    paper were similar, but not identical, to those in the source document, it was unlikely that the
    subject had plagiarized these numbers, but it was possible that he had fabricated them. OIG
    concluded that there was sufficient substance to the allegations of plagiarism and fabrication
    to conduct an investigation.

           OIG informed the subject's institution of the allegations and; at its request, OIG
    deferred its own investigation until the institution's investigation was completed. The
    committee collected laboratory notebooks and other relevant records and formed its
    conclusions after reviewing these records and interviewing the subject and the technician.




    I



    authors were   -
            The paper
                   -  was entitled,
                           I        '




                                             Page 1 of 4                          M91-41
                             CLOSEOUT FOR M91100041
Fabrication of Data

       The investigating committee found that no research or purchase-order records
supported the subject's assertion that he had conducted the experiments that produced the data
found in the proposal table. He said he had performed the experiments several years before
the NSF proposal was submitted and he had recorded the data on loose-leaf paper. He had
discarded these papers along with other materials during a recent general laboratory cleaning.
Although the committee could find "no positive evidence" that the experiments were
performed it also was unable to reach the "positive conclusion" that the data were fabricated.
The committee concluded that there was "solid quantitative evidence" that the experiments
described in the subject's paper were performed. Although the committee concluded that
records of the data presented in the subject's paper were "incomplete and sloppy," it also
concluded that these records supported the subject's and technician's statements that they had
conducted the experiments in question.

Plagiarism

        Of the 23 sections identified by OIG, the committee concluded that the text in 8 of
them (found in the paper) was constrained by "rhetorical limitations." It however found "it
difficult to escape the conclusion that" the paper and, "albeit to a negligible extent" the
subject's proposal "contain[ed] numerous instances of rank copying" not explained by
rhetorical limitations. It noted, however, that both the proposal and paper contained citations
to the other scientist's paper. It characterized the subject's actions as "truly lamentable, but
without deliberate attempt to deceive, [he] liberally borrowed large portions or wording from
the [paper] as a kind of short-cut, conscious or not . . . ." It said, "while there is a
preponderance of the evidence for rank copying, a conclusion of rank plagiarism does not
seem reasonable. Rather, what we have here is copying of other authors' work without
sufficient attribution to it."

The Institution's Actions

        The institution accepted the committee's report and conclusions that the "charge of
fabrication of laboratory data is unsupportable due to insufficient evidence" and that "there is
support of the allegation of misconduct in the form of numerous instances of rank copying."
The subject received a letter of reprimand which was to remain in his personnel file for at
least three years. He was directed to provide a written statement describing how he was
correcting the "deficiencies found in [his] laboratory practices and in [his] written work," and
instructed to have the chairman of the investigating committee review his handling of research
data quarterly for a period of one year.




                                      Page 2 of 4
                                  CLOSEOUT FOR M91100041

             OIG requested clarification on several points in the investigation report including: the
     subject's discarded research records, his practice of keeping laboratory records on loose-leaf
     paper; its characterization of the subject's actions as "rank copying" and the intent with which
     he acted as "lamentable carelessness." Because OIG was.concerned about the practice of
     discarding research records, OIG requested clarification on the institution's policy on the
     retention of such records. NSF's Grant General Conditions specifl that the institution, as
     grantee, must retain access to research records generated in the course of NSF-supported
     work for a period of three years from the submission of a final report.

     The Institution's Response

             The committee said that both the subject and his technician testified that the subject's
     normal practice was to record his research findings on loose-leaf paper. These papers, among
     others, were discarded in a general laboratory cleaning. They were not preferentially
'    discarded. It said that the experiments yielding the data in the proposal table were conducted
     prior to the funding of the subject's only NSF award. Since the investigation, the subject has
     submitted, as required, a plan to correct his "deficiencies." The committee stated that the
     institution did not have a policy on the retention of research records but was currently
     developing one as part of its comprehensive revision of university policies and practices.

             The committee said it considered "rank" plagiarism to be "the use of others' words and
     ideas without attribution and with the intent to deceive readers by portraying the ideas and
     works thus appropriated as one's own." Rank copying was defined as "outright copying from
     another's written or other work, but without the intent to deceive or claim the ideas as one's
     own." The committee concluded that the subject had not "intended to pass off the [other
     scientist's] work totally as his own" because the paper contained several references to the
     other scientist's paper, although they were not associated with the copied text. It concluded
     the presence of these citations "undermine[d] a finding of rank plagiarism." It found that
     "rank copying" had occurred that "constitute[d] bad scholarship." However, "absent a clear
     indication of intent to deceive" it concluded that a finding of misconduct in science was
     "problematic." It said the subject's actions were "lamentab[ly] careless" which was, in the
     committee's eyes equivalent to negligence.

     OIG's Conclusion
I'
            Once OIG receives an institution's investigation report, it reviews the report to see if it
     considers it accurate and complete, whether usual and reasonable procedures were followed,
     and whether the report can be adopted in lieu of OIG's own investigation. OIG disagreed
     with the committee's findings and conclusions, but accepted the institution's investigation
     report. OIG believes that, in this case, the citations to the source document in the subject's
     paper do not reduce his actions to "rank copying" and that the committee failed to provide an

                                           Page 3 of 4                              M91-41
                             CLOSEOUT FOR M913100041

adequate explanation for the subject's failure to provide attribution for the copied sections
when, by his citation to the source document in other places in his paper, he showed he was
clearly aware of the source document. OIG further believes that "intent to deceive'' can often
be inferred from a subject's actions, and may well have been present in this case. OIG found
no circumstances in this case that could explain the subject's actions as "lamentable
carelessness."

        However, OIG also concluded that the allegations in this case could not be pursued
further. Regarding the allegation of fabrication, there was no positive evidence that the
subject had not performed the experiments to produce the data in the NSF proposal table.
The committee stated that the subject's notes had not been preferentially discarded and, given
the length of time that had passed since the experiments were conducted (approximately 9
years ago), it is believable that they might have been discarded. Regarding the allegation of
plagiarism, the amount of paraphrased text in the NSF proposal, seven lines, is not considered
sufficiently serious, on its own, to pursue the investigation. The copying found in the subject's
paper is, however, extensive. Despite this, OIG can not pursue this allegation because the
work was supported by another agency. Therefore, OIG closed this case without a finding of
misconduct. It recommended to the institution that it forward its investigation report to the
other funding agency, as required by its regulations.


cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 4 of 4
